       Inspection of Unverified Records in the Railroad Retirement Board’s 

                      Employment Data Maintenance System 

                        Report No. 03-06, March 20, 2003 


                                    INTRODUCTION 


This report presents the results of the Office of Inspector General’s (OIG) inspection of
unverified records in the Railroad Retirement Board’s (RRB) Employment Data
Maintenance system (EDM).

Background

The RRB’s mission is to administer retirement/survivor and unemployment/sickness
insurance benefit programs for railroad workers and their families. During fiscal year
(FY) 2002, the RRB paid approximately $8.7 billion in railroad retirement and survivor
benefits to about 684,000 beneficiaries. The RRB also paid unemployment and
sickness insurance benefits of $105.8 million to some 41,000 claimants.

EDM is a database that maintains historical service and compensation information for
each person who has ever worked for a railroad. Railroad retirement benefits are
awarded based on the number of months of service and the amount of compensation
recorded in EDM. Service and compensation is reported to the RRB by railroad
employers using the employee Social Security Number (SSN) as the primary identifier.

The RRB verifies the SSN and name of all new railroad employees against the records
of the Social Security Administration. The initial verification process consists of an
automated records match. The name and SSN must both agree with Social Security
Administration records or the EDM account will be considered unverified. Unverified
accounts are referred for further manual review by RRB employees.

EDM distinguishes between verified and unverified accounts and identifies the
discrepancy that has prevented full verification. Accounts are not considered verified if:

      •   the Social Security Administration does not have a record of the SSN,
      •	 the name associated with the matching SSN does not agree with the name in
         the RRB’s records, or
      •	 the Social Security Administration reports having multiple SSNs for the same
         worker.

EDM also identifies accounts that were unverified when that system was implemented
in 1989.

The RRB’s Bureau of Information Services is responsible for maintaining EDM and
initiating the matching process. The Office of Programs is responsible for resolving any
discrepancies in name and/or SSN that are identified as a result of the automated
comparison.

The RRB’s strategic plan includes paying benefits accurately as the first strategic
objective in meeting the larger goal of providing excellent customer service. This
inspection addresses this goal because the accuracy of entitlement and benefit
computation decisions is dependent upon the accuracy of EDM service and
compensation data.


Objective, Scope and Methodology

The objective of this inspection was to determine whether the RRB could improve its
processing of unverified EDM accounts. The scope of this review was limited to
unverified EDM accounts that were not scheduled for automated file matching with
Social Security Administration records as of March 16, 2002. We specifically excluded
from review any account for which EDM showed neither service nor compensation. To
accomplish this objective, we:

      •   obtained and analyzed a computer extract of unverified EDM accounts;
      •   interviewed responsible management and staff;
      •	 reviewed unverified accounts, on a sample basis, to assess the accuracy of
         the verification status reported by EDM; and
      •	 reviewed the 80 unverified accounts for which EDM indicated both 120
         months of railroad service and the existence of multiple accounts on the
         records of the Social Security Administration.

The details of the OIG’s inspection methodology are presented in Appendix I of this
report.

This inspection was performed in accordance with Quality Standards for Inspections,
promulgated by the President’s Council on Integrity and Efficiency, at RRB
headquarters in Chicago, Illinois during September through December 2002.
                                RESULTS OF REVIEW 


The RRB can improve its handling of unverified EDM accounts. The RRB does not
resolve unverified EDM accounts timely and the system does not always reflect the
correct verification status. In addition, current procedures and controls do not
adequately ensure that railroad service and compensation data is properly maintained
in a single EDM account when it is reported under more than one SSN.

The details of our findings and recommendations for corrective action follow. The OIG’s
inspection methodology and the results of our detailed analysis and review of EDM
accounts are presented in Appendix I.


Resolution of Unverified Accounts

Current procedures and controls are not adequate to ensure the accurate categorization
and timely resolution of unverified EDM accounts. Our analysis of 15,530 accounts
categorized as unverified as of March 16, 2002 disclosed:

   •	 over 1,700 unverified accounts that had been incorrectly identified as pending
      verification; and
   •	 over 3,700 accounts that have remained unverified for at least 13 years and were
      not currently scheduled for further review. Some of these accounts contained
      compensation from 1937.

We also question the continued status of 1,922 accounts currently categorized as
unverified due to the absence of a matching SSN on the records of the Social Security
Administration. We randomly selected 10 accounts and queried the Social Security
Administration to determine whether the current EDM status was accurate. The Social
Security Administration reported having a record for each of the 10 accounts indicating
that the current account status reported by EDM was incorrect.

Railroad employers report service and compensation data to the RRB using the
workers’ SSN as the primary identifier. The RRB verifies the SSN on all new EDM
accounts with the records of the Social Security Administration to ensure that service
and compensation is recorded accurately as a basis for the determinations concerning
the entitlement to benefits and the amount of benefits payable.
Existing procedures for the resolution of unverified EDM accounts are outdated and
incomplete. The current EDM account verification process is not fully documented and
does not:

      •	 provide for the re-submission of unverified accounts in subsequent automated
         matches;
      •	 include tracking and documentation of action taken to resolve unverified
         accounts; and
      •   ensure that accounts are verified prior to the payment of benefits.

The risk of incorrect entitlement and benefit computation decisions is increased for
retirees whose service and compensation has been recorded in unverified EDM
accounts.

Recommendations

We recommend that the Office of Programs:

   1. fully document current procedures related to the verification of EDM accounts;

   2. 	 perform a one-time match of all unverified EDM records against the records of
        the Social Security Administration to determine the impact of unverified SSNs on
        the accuracy of service and compensation records as well as the potential for
        benefit underpayments;

and establish procedures:

   3. 	 for the periodic re-submission of unverified accounts for comparison with the
        records of the Social Security Administration during the automated matching
        process;
   4. 	 for the tracking and documentation of any action taken to resolve unverified EDM
        accounts; and
   5. to ensure that EDM accounts are verified prior to payment of benefits.

Management’s Response

The Office of Programs concurs with all five recommendations. They will develop a
comprehensive plan by July 31, 2003 to improve the process and implement the
recommendations. A complete copy of the response can be found in Appendix II. The
response includes preliminary data on compensation and service adjustments made in
connection with Recommendation #2.
Service and Compensation Reporting for Employees with Multiple SSNs

Current RRB procedures and controls do not provide reasonable assurance that
compensation and service is maintained in a single EDM account for railroad
employees who have more than one SSN.

In order for the RRB to pay benefits correctly, EDM must maintain all creditable railroad
compensation and service under a single SSN for each railroad employee. The RRB’s
automated systems do not use compensation or service maintained in a second or third
account when determining entitlement and computing benefits.

The automated account verification process identifies the EDM accounts of workers for
whom the Social Security Administration has a record of multiple SSNs. The RRB then
updates EDM to alert users of the existence of the other SSNs. However, the RRB
currently relies on a manual review process to ensure that the service and
compensation of railroad workers who hold multiple SSNs is recorded in only one EDM
account. When the Office of Programs identifies service and compensation that has
been reported under more than one SSN for the same railroad employee, the data is
transferred to the worker’s primary account.

In addition, some railroad employees have more than one EDM account due to
employer reporting errors. For example, an employer’s report of service and
compensation may inadvertently include a typographical error or transposed digit. In
these cases, a new EDM account will be created even though an account has already
been established under the correct SSN. This new account will not be verified when
matched against the records of the Social Security Administration.

We reviewed the EDM accounts of 80 individuals who were known to have multiple
SSNs and who were vested for benefits under the Railroad Retirement Act based on the
minimum requirement of 120 service months. In five of the 80 cases, service and/or
compensation had been reported under more than one SSN but had not been
consolidated into a single EDM account.

Existing controls are not adequate to ensure full reconciliation of EDM accounts when
employers have reported service and compensation under more than one SSN. We
noted that current agency procedures for unverified accounts do not include:

      •	 periodic reviews to identify and consolidate service and compensation when a
         worker is known to have multiple SSNs; and
      •	 a review of new EDM accounts to determine whether service and
         compensation reported under an unverified account number can be
         associated with a previously established EDM account.

As a result of inadequate controls, railroad workers whose service and compensation
has been reported under multiple SSNs are at increased risk of benefit adjudication
errors.
Recommendations

We recommend that the Office of Programs:

   6. 	 periodically identify and consolidate service and compensation when a worker is
        known to have multiple SSNs; and
   7. 	 review all new unverified EDM accounts to determine whether service and
        compensation can be associated with previously established EDM accounts.


Management’s Response

The Office of Programs concurs with both of the recommendations. They will develop a
comprehensive plan by July 31, 2003 to improve the process and implement the
recommendations. A complete copy of the response can be found in Appendix II.
                                                                            APPENDIX I
                                                                             Page 1 of 2

                   INSPECTION METHODOLOGY AND RESULTS

The Employment Data Maintenance system (EDM) is a mainframe database that
supports the adjudication of benefits under the Railroad Retirement Act. The system
stores the service and compensation data that is the basis for benefit entitlement
decisions and the computation of benefit amounts. EDM presently includes accounts
for over 11 million current and former railroad employees.

The railroad worker’s social security number (SSN) is the key identifier of employee
accounts in the EDM system. The RRB attempts to verify all SSNs and the associated
names with the Social Security Administration (SSA) to ensure that compensation and
service is credited to the correct EDM account. Any account that is not verified through
the annual computer match of EDM and SSA records is referred for manual review by
RRB personnel.

The OIG obtained an extract of 26,425 accounts where the SSN and name had not
been verified as of March 16, 2002. We excluded from our analysis 5,993 accounts that
were scheduled for automated file matching with SSA’s records and an additional 4,902
accounts that reported neither compensation nor service. Our study was restricted to
the remaining 15,530 unverified accounts.

Accounts Pending Verification with SSA

The study population included 1,769 accounts that had been erroneously classified as
pending verification. Although EDM identified these cases as pending verification, their
records lacked the secondary identifier that indicates the account is scheduled for
verification through the annual computer match of EDM and SSA records.

Accounts for which SSA does not have a Record of the SSN

The study population included 1,922 accounts, for which, according to EDM, SSA did
not have a record. We randomly selected 10 accounts and queried SSA records to
determine whether these accounts had been accurately categorized. SSA had a record
for each of the 10 SSNs indicating that the current EDM account status was incorrect.

The high error rate identified in this small sample was sufficient to convince
management that this category of unverified accounts presented a risk of error that
warrants management’s attention. Accordingly, we performed no further review or
analysis.
                                                                                           APPENDIX I
                                                                                            Page 2 of 2
                       INSPECTION METHODOLOGY AND RESULTS

Accounts not Verified when the RRB Converted to the EDM System in 1989

The study population included 3,741 accounts that had been categorized as unverified
since 1989 and were not currently scheduled for further review. These records carried
an unverified status indicator at the time EDM was loaded with data.

We randomly selected 10 of these accounts and queried SSA to determine whether
scheduling them for verification through the current automated process might result in a
change of status. SSA reported a record for each of the 10 accounts. For nine of the
10 accounts, name discrepancies prevented full verification.

Accounts with Name Differences

The study population included 6,967 accounts for which SSA had verified the SSN but
reported discrepancies in the name. We randomly selected 10 accounts to determine
whether the discrepancy could be reconciled. We were able to identify two accounts in
which EDM included sufficient data to permit resolution of the discrepancy through
manual review. Both accounts reported railroad service and/or compensation that
should have been credited to a previously verified EDM account.

Individuals with Multiple Accounts at SSA

Some individuals obtain multiple SSNs. In order for the RRB to pay benefits correctly,
EDM must report all creditable railroad compensation and service under a single SSN
for each railroad employee.

The study population included 1,131 accounts for which SSA had reported a record of
more than one SSN. We randomly selected 10 accounts to determine if EDM contained
compensation or service months under two or more SSNs for the same individual. No
errors were identified.

To supplement our initial test, we designed an additional test to assess the potential for
errors among the accounts of workers vested for benefits under the Railroad Retirement
Act. Errors in these accounts pose the greatest immediate risk to benefit payment
accuracy. We reviewed the accounts of 80 individuals who are entitled to benefits
based on the minimum requirement of 120 service months1. Our detailed tests
disclosed that compensation and/or service had been recorded under two or more
accounts in five of the 80 cases. Although the initial test disclosed no errors, the
supplemental test revealed that errors do exist and may exist at an unacceptable level.


1
 The attainment of 120 service months indicates that the railroad worker is vested in the railroad
retirement system based on service and will be eligible for benefits based on age or disability. Recent
legislation has reduced the number of service months required to obtain an annuity to 60, but the
legislation only applies to compensation earned after 1995.
